MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The

SUPREME COURT OF THE UNITED STATES
No. : 19-1462

Jacqueline Pidanick
vs.
Paul C. LaRosa, III AND Chris Sankowski

The United State Court Of Appeals
For The Fourth District

MOTION TO RECONSIDER DENIAL OF FEE WAIVER PETITION

JACQUELINE PIDANICK
lro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
DEC. 16th 2020

received
l

DEC 2 5 2020
!j$iScoumM

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Appellate asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed informa pauperis.
Appellate’s affidavit or declaration in support of this motion is attached hereto.

Thank you,

Jacqueline Pidanick
262 Old Bridge Drive Bluffton, SC
29910

2

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

MOTION TO RECONSIDER DENIAL OF FEE WAIVER PETITION
I, Jacqueline Pidanick, am the appellate in the above-entitled cases. I have come before
the court to kindly object to the denial of the FORMA PA UPERIS and to ask the court to please
reconsider. On December 14th 2020, the Supreme Court denied appellate’s motion to proceed in
forma pauperis, this action was inappropriate in this case because neither the appellate nor the
statement ofjurisdiction were frivolous, malicious or repetitive, the motion to leave to proceed in
Forma Pauperis was honest and truthful so appellate moves this Honorable Court to reconsider
the denial of proceeding in forma pauperis.
The United States Court Of Appeals For The Fourth Circuit allowed and granted the
leave to proceed in FORMA PAUPERIS on August 6th 2018 in the case above. Since a granting
was already allowed by the lower court due to proven financial hardship, I kindly ask the court
one last time to please reconsider the attached declaration to proceed in Forma Pauperis. This
request is brought forth under Rule 39 Rules of The Supreme Court of the United States.
Rule 39. Proceedings In Forma Pauperis
1. A party seeking to proceed in forma pauperis shall file a motion for leave to do so,
together with the party’s notarized affidavit or declaration (in compliance with 28 U. S.
C. § 1746) in the form prescribed by the Federal Rules of Appellate Procedure, Form 4
(Ms. Pidanick retyped the form allowed). The motion shall state whether leave to proceed
in forma pauperis was sought in any other court and, if so, whether leave was granted.
Which the appellate Ms. Pidanick was granted in the lower courts to proceed in forma
pauperis.
The Appellate would also like the Honorable court to know as of August 2020, family
members were placed on Medicaid due to hardship. The filing fee is simply out of the reach

3

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

of Ms. Pidanick, the appellate’s financial ability. The appellate has a beautiful son who is
now 9, that is battling his own trials concerning autism. Many times, I the appellate must
leave work or take his phone call and step out of sessions due to his inability to process and
must spend time going over school work creating comfort and ease for him. With the
pandemic many nights I must return home by a certain time to ensure I have enough time to
go over school work of the day and expand on his comprehension. Along, with teaching my
now 7 year old nightly and reenforcing her school lesson plans. Not to mention the cost of
daily childcare now that school is closed 3 days a week. This is a extra 400 roughly a week.
Since, I must be there for my children, all these issues increase my monthly expenditures.
Today’s family is known to live paycheck to paycheck, especially at this time and due to
societal challenges, a fee of 500 would mean no food, gas, the essentials.

Therefore, the appellate kindly request the motion for leave to proceed in Forma
Pauperis be granted. Thank you

spec]
Jacqueline Pidanick
Dec. 16th 2020

4

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The

SUPREME COURT OF THE UNITED STATES
No.: 19-1462

Jacqueline Pidanick
vs.
Paul C. LaRosa, III AND Chris Sankowski

The United State Court Of Appeals
For The Fourth District

OBJECTION TO DENIAL OF FORMA PAUPERIS

Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
DEC. 16th 2020
It is hereby certified that all parties required to be served have been served with copies of
appellate’s Reconsider/OBJECUON TO DENIAL TO MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS, via e-mail and USPS Priority mail, postage prepaid, this DEC 16th 2020.
Pursuant to Sup. Ct. R. 29(5)(c) and 28 U.S.C. § 1746, declaration is included herein.

JACQUELINE PIDANICK
'
L
Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910

5

e

X

■M
MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

Oath

i

State of South Carolina

O

1. Jacqueline Pidanick , after being first duly sworn according to law, do hereby make
oath, verify, state, and affirm, pursuant to the penalties of perjury under the laws of the United
States, and by the provisions of 28 USC § 1746, that all statements included in the above and
foregoing CERTIFICATE OF SERVICE for OBJECTION TO DENIAL TO PETITION FOR
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, are true and correct
representations, to the best of my knowledge, information and belief.
Dated: DEC !6th 2020

1

'i

■■I

Thank you,

1

Jacqueline Pidanick

!
H
i

j tesyfiu&S

L OBJSiOfo ;

B•

isni;

■■

.*•
•'•a
•j

•1

6

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The

SUPREME COURT OF THE UNITED STATES
.

No. : 19-1462

Jacqueline Pidanick
vs.
Paul C. LaRosa, III AND Chris Sankowski
The United State Court Of Appeals
For The Fourth District

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

IDANICK

Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
October 15th 2020 (only fixed)

1

i

J

•

'!

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS' .
,,

I

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The appellate asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Appellate affidavit or declaration in support of this motion is attached hereto.

Thank you,

Jacqueline Pidanick

f

262 Old Bridge Drive Biuffton, SC
29910
A •

!

2

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

I, Jacqueline Pidanick, am the appellate in the above-entitled cases. In support of my motion to
proceed in forma pauperis, I state that because of my poverty I am unable to pay the costs of this
case or to give security therefor; and I believe I am entitled to redress.

1. For both you and your spouse estimate the average amount of money received from each
of the following sources during the past 12 months. Adjust any amount that was received
weekly, biweekly, quarterly, semiannually, or annually to show the monthly rate. Use

r

gross amounts, that is, amounts before any deductions for taxes or otherwise, Please note
the Appellate is single and cares for a son with autism/adhd and a little girl on own.
INCOME SOURCE

l.T

Average monthly amount over the past 12 months / Amount expected next month v
1. Employment 42,000 (12months) / 3,800 (one month) I am. self employed and have tax
return upon request.

i

2. Child support is 2,750 a month which is allowed for school, and sitters for work hours
outside 8 to 3 hours, cloths, food, care for my daughter.
3. Total income 6,550 a month
EMPLOYMENT History

3

i

i

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The, Petitioner has been a trainer and nutritionist for 21 years and has worked for herself
during this time renting gyms to train clients in. Please note lack of full work due to
coronavirus.
4. I only have 780.00 roughly that is mine, in my account but need to pay the mortgage with
this too.
5. List the assets, and their values, which you own or your spouse owns, and ordinary
household furnishings.
A. Home Value 200,000 Mortgage is 179,000 roughly
B. Motor Vehicle #1 Year, make & model; ADVENTURE TOYOTA 2019 valued at 30,000 (
(my last car quit and I had enough trade in (value) to place down on a car).
6. State the persons who rely on you or your spouse for support, instead of names
A. JU , My Son , he is about to 9 and is special needs.
B. OM , My Daughter she is 6
8. Estimate the average monthly expenses of you and your family. (Rounded)
A. Mortgage is

$1,150

B. Utilities

$210

C. Repairs

900 new doors water leak in front door

;

D. Food $400
E. Clothing $250

;

F. Nothing on dry cleaning
g. Medical and dental

$50

h. Transportation $ 100 for gas
I. Home insurance 250 a month roughly

4

-V

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

Life insurance 400 a month roughly
Health insurance 300 a month roughly
Motor insurance 150 a month roughly

i

Taxes I do quarterly (these are on hold due to virus )
J. Installment payments.
Motor 600.00
Credit cards 150
Sitters 395 a week (I work at 6 am to about 5 each day) 1,580 a month

9.1 do not expect major changes in my income. ( my income is decreasing again do to COVID
spike)
10.1 am on a list to try to obtain help with this case and since this filing is above my knowledge I '
will try to pay for some guidance, as always. This is on hold, lawyers wish not to meet due to
virus. I have been waiting for paper too I was only allowed 4 to 5 packs at a time.
11. Will again paid in donations in time totaling 300 (saving if virus decreases and States open)
for aid to be taught how to do the Writ Of Certiorari for the Supreme Court and make corrects, I
am signed up to receive .
I, Jacqueline works 12 hour days to make the bills and support my children after facing
fraud upon the court.
Thank you ! Sincerely
Jacqueline PLdanick
Old bridge dr.
Bluffton, S.C. 29910

5

s
MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS
:

I declare under penalty of perjury that the foregoing is true and correct.
Date: Oct 15th 2020
Jacqueline Pidahick
/

;•

;

•;
;

i

i-

.S;

M

i

.1

.
;

a
.;

• :->

J\ ■

{

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The

j.

SUPREME COURT OF THE UNITED STATES
No. : 19-1462

Jacqueline Pidanick
VS.'

Paul C. LaRosa, III AND Chris Sankowski
The United State Court Of Appeals
For The Fourth District

■I

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
JACQUELINp/PIDANICK

i

/Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
JakkieDidanick@vahoo.com

■!

Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O.Box 12279
Charleston, South Carolina 29407
October 15th 2020

i

7

MOTION TO LEAVE TO PROCEED IN.FORMA PAUPERIS

CERTIFICATE OF SERVICE

’

<

It is hereby certified that all parties required to be served have been served with copies of
appellate’s MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, via e-mail and USPS
Priority mail, postage prepaid, this June 30th 2020. Pursuant to Sup. Ct. R. 29(5)(c) and 28 U.S.C. §
1746, declaration is included herein.
[See Attached Service List]

i

I

JACQUELINE BTOANICK

!

Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Date: October 15th 2020

■<

Service list
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston,
South Carolina
29407

!

!1

s

i
8

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

Oath
State of South Carolina
I, Jacqueline Pidanick, after being first duly sworn according to law, do hereby make
oath, verity, state, and affirm, pursuant to the penalties of perjury under the laws of the United
States, and by the provisions of 28 USC § 1746, that all statements included in the above and
foregoing CERTIFICATE OF SERVICE for PETITION FOR MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, are true and correct representations, to the best of my
knowledge, information and belief.
Dated: October 15th 2020
Thank you,
Jacqueline Pidanick
262 old Bridge dr
Bluffton, South Carolina
29910

9

1*

I;

FILED: August 6, 2018
UNITED STATES COURT QF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1317
(9:17-CV-00281-DCN)

•i

JACQUELINE PIDANICK
Plaintiff - Appellant
v.
CHRISTOPHER MADDALONI; MARSHALL HORTON; HOkTON AND
GOODMAN LLC, a South Carolina -LifiiitedLiabiMy Corporation.
Defendants - Appellees
and
Paul C, LAROSA, HI, individually and in his official capacity; CHRiS
SANKOWSKI, individually and in his official capacity

h

Defendants

ORDER
The court grants leave to proceed in forma pauperis.

■

Court—By Direction
M,Fatr|cia_S> Connor. Clerk

A

;,Y
.

• 'V-.rj.v

;
■ -'I.',‘‘A-L

:

. ’ V- _•:

i

Supreme Court of the United, States
■Office of the Clerk
Washington, DC 2054S-C&001
December 14, 2020

Scott: S. Harris
Clark cn the Court
<20-2)

Clerk
United States Court- of Appeals for the Fourth
Circuit
1100 East Main Street
Room 501
Richmond*. VA 23219
Re: Jacqueline Pidahick
v. 'Paul C. LaEosa* ill, et al.
No. 20-6104
{Your No. IS-1462)

Dear Clerk:
The Court today entered the following, order in the above-entitled case:
The motion of petitioner for leave to proceed in forma pauperis is
denied. Petitioner is allowed until January 4,2021, within which to pay the
docketing fee required by Rule 38(a).

Scott S. Harris, Clerk

7

*

h

vV

S'

